                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

  Case Number: A09120086                                                                            Page 1 of5



         University Inquiry

         Our office was- notified by a University that it had initiated an inquiry into allegations regarding research
         integrity, including allegations of research misconduct. The allegations included:

                   1.    Falsifying research data
                   2.    Concealing, deleting or otherwise destroying emails, information or data
                   3.    Misusing privileged information
                   4.    Seriously deviating from accepted practices for proposing, conducting or reporting research
                         and other scholarly activities.

         We note that the University never received any formal allegations; rather, the University developed
         these allegations internally based on publically released documents. Consistent with our Research
         Misconduct Regulation (45 CFR §689), we referred an inquiry to the University.

         Upon completion of the inquiry, the University provided us with its Inquiry Report which concluded there
         was no substance to the first three allegations listed above; however, the Inquiry Report did find
         sufficient concern regarding the fourth allegation listed above to recommend an investigation of that
         matter. Consistent with the NSF Research Misconduct Regulation, the University notified us that it was
         moving to investigation regarding the fourth allegation. In accordance with the NSF Research
         Misconduct Regulation, we referred an investigation to the University.

         University Investigation

         The University conducted its investigation and provided us with a copy of its Investigation Report. In
         accordance with the NSF Research Misconduct Regulation, we reviewed it along with the Inquiry
         Report and found that it did not provide'the supporting evidence and documentation necessary for O'IG
         to concur with the University's conclusions. We wrote to the University, requesting an extensive
         amount of documentation related to its investigation, including copies of all documentation the
         committees used in their assessments, copies of all interview transcripts, and specific transcripts or
         memorandums about certain conversations to which the report referred. We also asked the University
         to address several questions including:

                   1. How the inquiry committee determined that there was no substance to the first three
                      allegations,
                   2. How both committees selected the individuals they interviewed,
                   3. How the investigation committee verified certain statements by the Subject and other
                      individuals interviewed,
                   4. Evidence used by both committees to determine accepted practices, and
                   5. How the investigation committee reconciled differing viewpoints expressed by interviewees
                      regarding data sharing expectations.

         The University responded by providing us with the documentation we requested and with responses to


NSF OIG Form 2 (11102)
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A09120086                                                                        Page 2 of5




   our questions.


    OIG Review

   We fully examined both the University Inquiry and Investigation Reports. Although the Inquiry Report
   dismissed three of the four allegations, we examined each de novo under the NSF Research
   Misconduct Regulation. That regulation, consistent with the policy of the Office of Science and
   Technology Polici, defines research misconduct as plagiarism, fabrication, and falsification (45 CFR §
   689.1 ).

   Based on our review of both University reports and all material we received and reviewed on the matter,
   we were satisfied that the University adequately addressed its Allegations 3 and 4 (misusing privileged
   information and serious deviation from accepted practices) identified in the Inquiry Report. We also
   determined that these allegations were not issues covered under our Research Misconduct Regulation.

   We next considered the University's second Allegation, related to the emails. We reviewed the emails
   and concluded that nothing contained in them evidenced research misconduct within the definition in
   the NSF Research Misconduct Regulation. The University had been provided an extensive volume of
   emails from the Subject and determined that emails had not been deleted. We found no basis to
   conclude that the emails were evidence of research misconduct orthat they pointed to such evidence.
   We concluded that the University adequately addressed its second Allegation.

    Regarding the University's first Allegation (data falsification), however, we concluded thatthe University
    did not adequately review the allegation in either its inquiry or investigation processes. In particular, we
    were concerned that the University did not interview any of the experts critical of the Subject's research
    to determine if they had any information that mighfsupport the allegation. Therefore, we initiated our
    own investigation under the NSF Research Misconduct Regulation. Pursuant to that regulation, we did
    not limit our review to an allegation of data falsification. Rather, we examined the evidence in relation to
    the definition of research misconduct under the NSF Research Misconduct Regulation.

    OIG Investigation

    As a part of our investigation, we again fully reviewed all the reports and documentation the University
    provided to us, as well as a substantial amount of publically available documentation concerning both
    the Subject's research and parallel research conducted by his collaborators and other scientists in that
    particular field of research. As noted above, no specific allegation or evidence of data fabrication or
    falsification was made to the University; rather, the University developed its allegation of data
    falsification based on a reading of publicly released emails, many of which contained language that


    1   Federal Register: December 6,2000 (Volume 65, Number 235), Page 76260-76264
                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A09120086                                                                     Page 3 of5



   reasonably caused individuals, not party to the communications, to suspect some impropriety on the
   part of the authors.

   As part of our investigation, we attempted to determine if data fabrication or falsification may have
   occurred and interviewed the subject, critics, and disciplinary experts in coming to our conclusions. As
   a result of our interviews we concluded:

         1. The subject did not directly receive NSF research funding as a Principal Investigator until late
            2001 or 2002.
         2. The Subject's data is documented and available to researchers.
         3. There are several concerns raised about the quality of the statistical analysis techniques that
            were used in the Subject's research.
         4. There is no specific evidence that the Subject falsified or fabricated any data and no evidence
            that his actions amounted to research misconduct.
         5. There was concern about how extensively the Subject's research had influenced the debate in
            the overall research field.

   Analysis and Conclusion

    To recommend a finding of research misconduct, the preponderance of the evidence must show that
    with culpable intent the Subject committed an act that meets the definition of research misconduct (in
    this case, data fabrication or data falsification).

    The research in question was originally completed over 10 years ago. Although the Subject's data is
    still available and still the focus of significant critical examination, no direct evidence has been
    presented that indicates the Subject fabricated the raw data he used for his research or falsified his
    results. Much of the current debate focuses on the viability of the statistical procedures he eniployed,
    the statistics used to confirm the accuracy of the results, and the degree to which one specific set of
    data impacts the statistical results. These concerns are all appropriate for scientific debate and to
    assist the research community in directing future research efforts to improve understanding in this field
    of research. Such scientific debate is ongoing but does not, in itself, constitute evidence of research
    misconduct.

    Lacking any direct evidence of research misconduct, as defined under the NSF Research Misconduct
    Regulation, we are closing this investigation with no further action.

    Other matters raised

    During the course of our investigation we considered issues possibly raised by "compliance with, or
    violations of, OMS administrative procedures, 2 C.F.R. Part 215 (OMS Circular A-11 0), in particular 2
    C.F.R. §215.36; Freedom of Information Act, 5 U.S.C. §552 (NSF Regulation, 45 C.F.R. Part612); NSF
    guidelines implementing OMS information quality guidelines (515 Guidelines); Federal False Claims
    Act, 18 U.S.C. §287, and 31 U.S.C. §§3729-33; and Federal False Statements Act, 18 U.S.C. §1 001."
                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A09120086                                                                               Page 4 of5




   Concerning the Freedom of Information Act (FOIA) and 2 C.F.R. Part 215.36, we note that 2 C.F.R.
   Part 215.36, requires that federal awardees make their research data available to the awarding agency
   so that the data can be processed for potential disclosure in response to a FOIA request made for such
   data. This provision applies explicitly to data that has been used to develop agency action that has the
   force and effect of law. Under NSF's organic statute (42 U.S.C. §1861 et seq.), the Foundation's
   primary mission is to "initiate and support basic scientific research and programs to strengthen scientific
   research potential and science education at all levels .... " The agency has no regulatory or rule-
   making function or authority; no NSF-funded research at issue has been used in developing NSF action
   that has the force and effect of law. Thus, the FOIA and 2 C.F.R. Part 215.36 are not implicated in our
   investigation.

    Concerning NSF guidelines implementing OMB information quality guidelines (515 Guidelines), we
    note that OMB has determined that the guidelines do not apply to federally funded grantees who
    publish their research findings in the same manner as their academic colleagues unless the agency
    represents the information as, or uses the information in support or, an official position of the agency.2
    Thus, the "515 Guidelines" are not implicated in our investigation. Similarly, NSF's corresponding
    guidelines,3 specifically state:

              Research data, findings, reports and other materials published or otherwise
              distributed by employees or by agency contractors or grantees that are clearly
              identified as not representing NSF views. NSF grantees are wholly responsible
              for conducting their project activities and preparing the results for publication or
              other distribution. NSF promotes data sharing by its grantees through its data
              sharing policy and by data archiving by its grantees. NSF does not create,
              endorse, or approve such data or research materials, nor does the agency
              assume responsibility for their accuracy. NSF's encouragement of data
              sharing and archiving helps to ensure that researchers and the public have
              quicker and easier access to data and research materials. Distribution of
              research in this manner is not subject to these guidelines, even if NSF retains
              ownership or other intellectual property rights because the Federal government
              paid for the research. 4 (emphasis added).

    Concerning False Claims, 18 U.S.C. §287 and 31 U.S.C. §§3729-33, and False Statements, 18 U.S.C.
    §1 001, we examined the elements of each suggested offense and have concluded that there is
    insufficient evidence of violations of any of these statutes to warrant investigation.

    Thus, we have determined that these other matters are not implicated in this investigation.



    2 67 Fed. Reg. 8452, at 8453 (2002).
    3 NSF Infonnation Quality Guidelines [NSF Guidelines], published at www.nsf.gov!policies/infoqua1.jsp
    4 NSF Guidelines at 4.
                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

Case Number: A09120086                                                                Page 5 of5



   Finding no research misconduct or other matter raised by the various regulations and laws discussed
   above, this case is closed.
